I

No. 19-582

In the
SUPREME COURT OF THE UNITED STATES
Sara Ann Edmondson,
Petitioner,
vs.
Lilliston Ford Inc; JANE AND JOHN DOES 1-10, individually and as owners,
officers, directors, founders, managers, agents, servents, employees,
representatives and/or independent contractors of LILLISTON FORD, INC.; XYZ
CORPORATIONS 1-10,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Third Circuit

PETITION FOR REHEARING

Sara Ann Edmondson, Pro Se
71 Rainbow Trail
Pittsgrove, NJ 08318
609.501.2249

AUTHORITIES
Page
9 USC § 2

... 1

28 USC § 2106

... 4

Buckeye Check Cashing Inc., v. Cardegna,
546 U.S. 445 (2006)

... 4

GE Energy Power Conversion France SAS
v. Outokumpu Stainless USA

...3

Kindred Nursing Ctrs., 137 S. Ct.

... 2

Lawrence v. Chater, 516 U.S. 163,167 (1996)

...4

MarmetHealth Care Center, Inc. v. Brown

... 2

Nitro-ldft Technologies, L.L. C. v. Howard

... 1

Rivers v. Roadway Express, Inc. v.
Roadway Express, Inc., 511 U.S. 298, 312 (1994)

... 1

Southland Corp v. Keating, 465 U.S. 12 (1984)

... 1

Tolan v. Cotton

...3

This Petition for Rehearing is being submitted pursuant to
Supreme Court Rule 44 under the substantive issue: Federal
Arbitration Law, 9 USC § 2. It is well established that “the
substantive law the Act created [is] applicable in state and
federal court.” Southland Corp v. Keating, 465 U.S. 12 (1984)
“It is this Court’s responsibility to say what a statute means,
and once the Court has spoken, it is the duty of other courts
to respect that understanding of the governing rule of law”.
Rivers v. Roadway Express, Inc., 511 U.S. 298, 312 (1994). In
the event that duty is derelicted, it is the supervisory authority
of this Court to assert the supreme law of the land.
REASONS FOR GRANTING THE PETITION
L This Court should summarily reverse the lower decision for
failing to follow Supreme Court decisions and precedents
interpreting the FAA: Nitro-IM Technologies. LL.C. v. Howard
Given the “obvious” nature of the errors below, the Court might
wish to consider summary reversal. This Court has taken that
step several times in recent years to set aside

1

manifest failures by lower courts to adhere to this Court’s
arbitration rulings. See Nitro-Lift Techs., 568 U.S. at 20 (lower
court “disregard[ed] this Court’s precedents on the FAA”);
Marmet, 565 U.S. at 531 (lower court erred “by misreading and
disregarding the precedents of this Court interpreting the
FAA”). And this Court has overturned other flawed arbitration
rulings after plenary review. See Kindred Nursing Ctrs., 137 S.
Ct. at 1427-28 (a court may invalidate an arbitration agreement
based on generally applicable contract defenses like fraud).
In Nitrn-Lift Technologies. L.L.C. v. Howard, the Supreme
Court

explained,

the

Oklahoma

Supreme

Court

“acknowledged” the relevant U.S. Supreme Court cases
holding that the FAA requires attacks on provisions other than
the arbitration clause itself to be submitted to arbitration, “but
chose to discount these controlling decisions.” In the decision
below, the lower courts acknowledged a contract validity
challenge based on Respondent’s judicial admission of
misrepresentations in the arbitration clause itself; however,
the Courts chose to ignore

2

the precedents and directives of this Court in reference to a
validity challenge as well as in a judicial admission. There are
a relatively large number of summary reversals in arbitration
cases from this Court that engage in fact-specific error
correction.
Summary reversal is a decision to enforce the law. This Court
ordinarily reserves summary reversal for situations in which a
lower court has clearly failed to abide by the Court’s
precedents.

There is a “palpable evasion” of this Court’s

precedents as well as of the intent of the US Congress in 9
USC § 2.
IL This Court should summarily reverse for ‘Error Correction”
In a rare example of “error correction”, this Court reversed
summary judgment in Tolan v. Cotton because two lower
courts “neglected to adhere to the fundamental principle”
when considering such a motion. In the decision below, while
the court of original jurisdiction acknowledged the motion for
summary judgment, it intentionally failed the most

3

i

fundamental principle: to issue an executed order on
summary judgment. The approach taken by the trial court
below is especially troublesome and questionable. This clearly
represents a unique, rare example requiring “error correction”.
HL Alternatively, this Court could issue a GVR order in light
of its forthcoming decision in GE Energy Power
Conversion France SAS v. Outokumpu Stainless USA.
This Court stands poised to render a decision in the
above-described case. It is anticipated that the forthcoming
decision will include legal principles, doctrines and
discussions that bolster the legal argument explained
earlier about domestic law issues surrounding the FAA and
Federal statutes. Hence, I request that, after issuing its
decision in GE Energy, the Court issue an order granting
certiorari review, vacating the lower court’s decision below,
and remanding with instructions that direct the entry of
“appropriate judgment” under Buckeye at 445.

4

28 USC 2106 authorizes the Supreme Court to "remand [a]
cause and ... require such further proceedings to be had as may
be just under the circumstances", Lawrence v. Chafer, 516 U.S.
163 (1996).
CONCLUSION
“It is this Court’s responsibility to say what a statute means,
and once the Court has spoken, it is the duty of other courts to
respect that understanding of the governing rule of law.”
Rivers v. Roadway Express, Inc., 511 U.S. 298, 312 (1994). The
intentionality with which the lower courts’ contravene the duty
to that rule of law in order to support this Court’s public policy
favoring arbitration is alarming and calls for the supervisory
authority of this Court under Rule 10(a). The authority to
summarily reverse a decision or to remand a cause and direct
the entry of an "appropriate judgment" is vested by 28 U.S.C. §
2106. In a matter of this magnitude, this Court’s history and
record dictate summary reversal.
Respectfully submitted,

5

X

CERTIFICATE OF CQITNSET,
This petition is restricted to the grounds specified in paragraph 1 of
Supreme Court Rule 44. Further, this petition is presented in good faith
and not for delay.

.NN e:

NDSON, Petitioner

